DOUGLAS N. LETTER

BROOKS M. HANNER

GENERAL COUNSEL

TODD B. TATELMAN

PRINCIPAL DEPUTY GENERAL COUNSEL

MEGAN BARBERO

U.S. HOUSE OF REPRESENTATIVES
OFFICE OF GENERAL COUNSEL
219 CANNON HOUSE OFFICE BUILDING
WASHINGTON, DC 20515-6532
(202) 225-9700
FAX: (202) 226-1360

DEPUTY GENERAL COUNSEL

JOSEPHINE MORSE

DEPUTY GENERAL COUNSEL

ASSOCIATE GENERAL COUNSEL

ADAM A. GROGG

ASSOCIATE GENERAL COUNSEL

SARAH E. CLOUSE

ASSOCIATE GENERAL COUNSEL

WILLIAM E. HAVEMANN
ASSOCIATE GENERAL COUNSEL

JONATHAN B. SCHWARTZ
ATTORNEY

January 24, 2020
By email and electronic filing
Mr. Scott S. Harris
Clerk
Supreme Court of the United States
One First Street NE
Washington, D.C. 20543
Re:

Trump v. Mazars, No. 19-715, and Trump v. Deutsche Bank, No. 19-760

Dear Mr. Harris:
Respondents Committee on Oversight and Reform, Committee on Financial Services, and
Permanent Select Committee on Intelligence of the U.S. House of Representatives hereby grant
blanket consent to the filing of amicus curiae briefs in support of either or neither party in the abovecaptioned cases.
Respectfully submitted,
/s/ Douglas N. Letter
Counsel of Record
cc: William S. Consovoy, Esq.
Pratik A. Shah, Esq.
Jerry D. Bernstein, Esq.
James A. Murphy, Esq.

